No. 19-278
In the

Supreme Court of the United States
__________________

PFIZER, INC. AND GREENSTONE LLC,
Petitioners,
v.
SUPERIOR COURT OF CALIFORNIA FOR THE
COUNTY OF LOS ANGELES, et al.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
California Court of Appeal

__________________

REPLY IN SUPPORT OF PETITION
FOR WRIT OF CERTIORARI
__________________
SHEILA L. BIRNBAUM
MARK S. CHEFFO
RACHEL B. PASSARETTI-WU
LINCOLN DAVIS WILSON
DECHERT LLP
Three Bryant Park
1095 Sixth Avenue
New York, NY 10036

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com

JUSTIN M. ROMEO
DECHERT LLP
2929 Arch Street
Philadelphia, PA 19104

Counsel for Petitioners
November 5, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

RELATED PROCEEDINGS
A petition for writ of certiorari involving the same
cases at issue in this Petition was previously pending
in Pfizer Inc. v. Adamyan, No. 18-1578. On October 7,
2019, this Court denied the certiorari petition in
Adamyan.

ii
TABLE OF CONTENTS
RELATED PROCEEDINGS . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. The Question Presented Was The Primary Basis
For The California Courts’ Rulings . . . . . . . . . . . 3
II. The California Courts’ Misuse Of The Federal
Law Of Forfeiture To Evade Bristol-Myers
Warrants Review And Reversal . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iii
TABLE OF AUTHORITIES
CASES
In re Agent Orange Prod. Liab. Litig.,
818 F.2d 145 (2d Cir. 1987) . . . . . . . . . . . . . . . . . 9
In re Auto. Refinishing Paint Antitrust Litig.,
358 F.3d 288 (3d Cir. 2004) . . . . . . . . . . . . . . . . . 9
BNSF Ry. Co. v. Tyrrell,
137 S. Ct. 1549 (2017). . . . . . . . . . . . . . . . . . . . . . 9
Bristol-Myers Squibb v. Superior Court,
137 S. Ct. 1773 (2017). . . . . . . . . . . . . . . 1, 2, 9, 11
Cain v. Commercial Pub. Co.,
232 U.S. 124 (1914). . . . . . . . . . . . . . . . . . . . . . . . 6
Gen. Inv. Co. v. Lake Shore & M.S. Ry. Co.,
260 U.S. 261 (1922). . . . . . . . . . . . . . . . . . . . . . . . 8
Goldey v. Morning News of New Haven,
156 U.S. 518 (1895). . . . . . . . . . . . . . . . . . . . . . . . 7
In re Lipitor Mktg., Sales Practices & Prod.
Liab. Litig., 892 F.3d 624 (4th Cir. 2018) . . . . . 10
Ruhrgas AG v. Marathon Oil Co.,
526 U.S. 574 (1999). . . . . . . . . . . . . . . . . . . . . . 5, 7
Sinochem Int’l Co. Ltd. v. Malaysia Int’l
Shipping Corp., 549 U.S. 422 (2007) . . . . . . . . . . 5
STATUTES
28 U.S.C. § 1407(a). . . . . . . . . . . . . . . . . . . . . . . . . . 10

iv
OTHER AUTHORITY
Manual for Complex Litigation (Fourth)
(2004). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

INTRODUCTION
There is no dispute that these coordinated cases
involve the same procedural configuration as in BristolMyers Squibb v. Superior Court, 137 S. Ct. 1773 (2017).
As a result, due process precludes personal jurisdiction
over the claims of non-resident Plaintiffs. Nor is there
any dispute that Pfizer preserved that personal
jurisdiction defense from waiver by stating it in its
answers. And authority from this Court and the
Courts of Appeals unanimously holds that a
defendant’s assertion of federal subject matter
jurisdiction cannot effect a forfeiture of its personal
jurisdiction defenses.
Rather than grappling with these straight-forward
points, Respondents deny that the case even presents
the question of whether invocation of federal subject
matter jurisdiction can forfeit personal jurisdiction.
But that is precisely what Respondents asked the lower
courts to hold. And it is precisely what those courts
held. Respondents’ reconstruction of the record below
cannot save the unprecedented rule that the California
courts fashioned to avoid Bristol-Myers.
The primary basis for the trial court’s decision was
that Pfizer forfeited personal jurisdiction because it
“had more than enough time” to raise the issue while
these cases were in the federal multi-district litigation
(MDL). Pet.App.12. Yet, because the only litigation
that took place in these cases while they were in the
MDL involved subject matter jurisdiction, the trial
court necessarily ruled that Pfizer’s litigation of subject
matter jurisdiction forfeited personal jurisdiction.
Pet.App.11-12. The only other basis for forfeiture

2
noted by the trial court was that Pfizer “urged the
[MDL court] to enter summary judgment . . . after
rejecting Plaintiffs’ subject matter jurisdiction
arguments.” Pet.App.13-14. But, as explained in the
Petition, that request was merely a standard
conditional waiver of personal jurisdiction that is
ineffective where its condition—a finding of subject
matter jurisdiction—is unmet. Pet.23-24.
There is thus no ambiguity about what the
California courts decided in these cases, and there is no
support for those decisions under federal law. On the
contrary, the decisions below defy the unanimous
precedents of this Court and the Courts of Appeals.
Absent this Court’s review, thousands of non-resident
products liability claims will be stuck in the California
state courts in direct violation both of Bristol-Myers
and of this Court’s settled law against forfeiture
through removal. As amici explain, this double
“evasion of precedent adds to a growing list of
California rulings that have sought to circumvent the
clear command of Bristol-Myers.” ATRA.Br.4 & n.3. To
ensure that Bristol-Myers is enforced, this Court should
grant certiorari and reverse.

3
ARGUMENT
I. The Question Presented Was The Primary
Basis For The California Courts’ Rulings.
The decisions below indisputably raise the question
presented. The primary basis for the California courts’
decisions was their determination that Pfizer’s
litigation of subject matter jurisdiction forfeited
personal jurisdiction.
On its face, the trial court
decision held that, while in the MDL, “the Pfizer
Defendants had more than enough time to litigate their
defense of lack of personal jurisdiction as to the nonCalifornia Plaintiffs in the California cases but did not
do so,” which the Court held “result[ed] in a forfeiture
of the defense.” Pet.App.12. But during the period in
which the court said Pfizer had “more than enough
time” to litigate personal jurisdiction, these cases were
stayed pending determination of subject matter
jurisdiction. See Pet.App.11, 86.
Thus, Pfizer’s
assertion and litigation of federal subject matter
jurisdiction was the only conduct supporting the lower
court’s finding that Pfizer forfeited its personal
jurisdiction defense.
The trial court’s decision, which laid out Pfizer’s
“conduct” in these cases in the MDL, all of which arose
directly out of Pfizer’s assertion of subject matter
jurisdiction, confirms that its decision turned on the
question presented here. The trial court noted that
Pfizer “began removing these actions to federal courts
in March 2014.” Pet.App.11. Then, the trial court
observed that “[i]nstead of filing a motion to dismiss all
claims brought by out-of-state Plaintiffs, Defendants
sought transfer of the cases to the MDL proceeding” to

4
litigate subject matter jurisdiction on a coordinated
basis. Id. And it stated that Pfizer sought “narrowly
tailored jurisdictional discovery that could be used to
support Defendants’ arguments in favor of maintaining
subject matter jurisdiction in the MDL proceeding.”
Id.1 This direct tie between all of the conduct in these
cases identified by the trial court and Pfizer’s litigation
of subject matter jurisdiction confirms that the
decisions below addressed the question presented.
Indeed, Respondents repeatedly asked the trial
court to do exactly what they now claim it did not do.
Respondents argued that Pfizer cannot “have it both
ways” by arguing for subject matter jurisdiction and
against personal jurisdiction over claims by nonresident plaintiffs. Resp.App.85. They argued at
length in the trial court that “Pfizer’s efforts to have
the claims adjudicated in the MDL were tantamount to
Pfizer asserting that the claims belonged in a
California forum.” Resp.App.81; see also Resp.App.8286. Then they re-urged the very same thing on appeal,
emphasizing in their briefing to the California Supreme
1

Respondents mischaracterize this “narrowly tailored
jurisdictional discovery,” Pet.App.11, as a request for merits
discovery, based on Pfizer’s statements that it was relevant to “the
merits . . . and the jurisdictional issues” with regard to
Respondents’ “claims against McKesson.” Opp.23. But because
the jurisdictional discovery sought to establish that McKesson was
fraudulently joined to defeat diversity, it necessarily implicated the
merits of claims against McKesson. See Pet.App.84, 87. Nor did
Pfizer consent to litigation on the merits by seeking Respondents’
participation in the MDL depositions of Pfizer’s witnesses. See
Opp.23-24. Respondents would have participated in those MDL
depositions even if their actions had been pending in state court.
Pet.15 & n.2.

5
Court that “Pfizer removed the California cases
without raising personal jurisdiction . . . challenges.”
Resp.App.10. Even now, Respondents continue to
argue this point in this Court, noting that, instead of
“asserting a personal jurisdiction challenge,” Pfizer
“remov[ed] all cases to federal court.” Opp.4; see also
Opp.11.2
Respondents attempt to defend these assertions by
repeating the trial court’s misunderstanding of
Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574 (1999),
insisting that Pfizer could have—and therefore should
have—filed a dispositive motion on personal
jurisdiction along with subject matter jurisdiction.
Opp.II. But they are wrong on both counts. Under
Ruhrgas, personal jurisdiction should be addressed
first only if it will “stop the court from proceeding to
the merits of the case” and thus obviate the need to
decide subject matter jurisdiction. 526 U.S. at 584;
accord Sinochem Int’l Co. Ltd. v. Malaysia Int’l
Shipping Corp., 549 U.S. 422, 431 (2007). Pfizer could
not have done so here because its personal jurisdiction
defense would only dispose of the claims of the nonresident Plaintiffs. See Pet.6, 22. Even after the
dismissal of those non-resident Plaintiffs, there would
2

Contrary to a previous agreement they reached with counsel for
Pfizer, Respondents also appear to argue that the timing of Pfizer’s
filing of its personal jurisdiction motion in state court was evidence
of forfeiture. Opp.11-13. But the parties negotiated the deadline
for the filing of that motion in state court in the interest of judicial
efficiency. In any event, as the trial court observed, Respondents
only argued forfeiture below based on Pfizer’s conduct in federal
court, Pet.App.8, and they have thus waived any argument of
forfeiture based on state-court conduct.

6
not have been subject matter jurisdiction over the
remaining California Plaintiffs because they would not
be diverse from Defendant McKesson Corp. See id.3
Thus, the MDL court could not have granted Pfizer’s
personal jurisdiction motion until it first determined
that it had subject matter jurisdiction over the entire
action. There would have been no point in Pfizer filing
a personal jurisdiction motion that the MDL court
would have been powerless to decide before having
found subject matter jurisdiction.
More important, even if Pfizer could have asserted
its personal jurisdiction defense simultaneous with
removal, that would not require it to do so. The law
rejects the notion that a defendant’s assertion of its
statutory right to federal jurisdiction and its
constitutional right to an appropriate forum is an
attempt, in Respondents’ words, to “have it both ways.”
Resp.App.85. To the contrary, this Court explained
over a century ago that this rule against forfeiture
through removal is “essential” to prevent plaintiffs
from forcing a defendant to choose between litigation in
“a jurisdiction not of his residence” or asserting his
right to “a more impartial tribunal” in federal court.
Cain v. Commercial Pub. Co., 232 U.S. 124, 133 (1914).
Yet, that is the choice the California courts forced
Pfizer to make—at Respondents’ express urging.
3

The presence of McKesson as a forum defendant distinguishes
these cases from the Missouri Lipitor cases referred to in
Respondents’ opposition where, because of the absence of a forum
defendant, Pfizer’s request to dismiss the non-resident Plaintiffs
for lack of personal jurisdiction would have obviated any problem
of subject matter jurisdiction between the Missouri plaintiffs and
Pfizer. See Pet.App.84-85.

7
“[L]eft undisturbed, the California courts’ rulings
would effectively nullify Ruhrgas and compel
defendants in California’s courts to litigate personal
jurisdiction before subject matter jurisdiction in every
removed case, lest they be later held to have forfeited
the former defense.” ATRA.Br.5.
Both this Court’s precedents and a unified wall of
decisions from the Courts of Appeals reject the theory
that asserting subject matter jurisdiction forfeits
personal jurisdiction. See Pet.II.A. This Court held
over 120 years ago that whether an “attempt to remove
should be successful or unsuccessful”—a determination
that requires litigation—it cannot “be treated as
submitting the defendant to the jurisdiction of the state
court for any other purpose.” Goldey v. Morning News
of New Haven, 156 U.S. 518, 525-26 (1895). Pfizer’s
litigation of subject matter jurisdiction cannot result in
forfeiture of its due process rights.
***
Nor did Pfizer’s filing of an omnibus motion for
summary judgment in the MDL make any difference.
At most, that motion offered a run-of-the-mill
conditional waiver of personal jurisdiction by
requesting that summary judgment procedures take
place in these cases following a finding of subject
matter jurisdiction—a condition that was never met.
As the trial court acknowledged, Pfizer’s briefing
requested that summary judgment procedures occur in
these cases only “after rejecting Plaintiffs’ subject
matter jurisdiction arguments.” Pet.App.14 (emphasis
added). It further observed that Pfizer’s motion for
summary judgment had noted that the California cases

8
were “subject to pending remand motions.” Pet.App.56.
Indeed, Pfizer’s summary judgment briefing
specifically stated that summary judgment in these
cases would require further procedures beyond its
omnibus motion—that is, the MDL court could “issue
a similar order” commencing summary judgment
procedures in these cases “after addressing the remand
motions.”
Pet.App.52 (emphasis added).
And
Respondents acknowledge that Pfizer’s request for
summary judgment was contingent on the success of its
position that the MDL court “‘has subject matter
jurisdiction over all cases in the MDL.’” Opp.8 (quoting
Pet.App.51).
In fact, summary judgment procedures never even
occurred in these cases because the MDL court did not
find subject matter jurisdiction. Instead, because it
was contingent on federal subject matter jurisdiction,
Pfizer’s motion for summary judgment implicated the
threshold question of subject matter jurisdiction, which
as explained above cannot forfeit personal jurisdiction.
Pfizer did not, as Respondents say, move for summary
judgment without asserting a personal jurisdiction
defense. See Opp.26. Rather, at most, it offered a
conditional waiver of personal jurisdiction defenses in
the event that subject matter jurisdiction were
established in the MDL. See Pet.23-24; see also
Pet.App.66 (stating in California federal courts that
personal jurisdiction “goes away” if subject matter
jurisdiction is established). It was Pfizer’s right, if
subject matter jurisdiction was secured, to call for a
decision on personal jurisdiction or for “judgment on
the merits.” Gen. Inv. Co. v. Lake Shore & M.S. Ry.
Co., 260 U.S. 261, 268-69 (1922). Respondents cite no

9
authority that has ever held that such a routine
conditional waiver of personal jurisdiction is binding
even where its condition is not fulfilled. See Pet.23-24;
ATRA.Br.10-11. There is none.
II. The California Courts’ Misuse Of The Federal
Law Of Forfeiture To Evade Bristol-Myers
Warrants Review And Reversal.
If allowed to stand, the rule fashioned by the
California courts would undermine efficient
management of civil litigation, especially in MDL
proceedings, and would force defendants to an
untenable choice between their statutory right to an
impartial federal forum and their constitutional right
to a forum with some minimum connection to the
claims against them. Moreover, the rulings below
chart yet another course among the many paths that
the California courts have cut around Bristol-Myers,
conferring state-court jurisdiction over massive multiplaintiff actions brought by persons with no connection
to the forum. Bristol-Myers means what it says, and
this Court should grant review, enforce its judgment,
and reverse. See BNSF Ry. Co. v. Tyrrell, 137 S. Ct.
1549 (2017).
As amici observe, the illogic and unworkability of
the California courts’ rule is particularly apparent in
the MDL context. ATRA.Br.II. MDL courts exercise
personal jurisdiction “to the same extent that the
transferor court could” in each individual case. In re
Auto. Refinishing Paint Antitrust Litig., 358 F.3d 288,
297 n.11 (3d Cir. 2004); accord In re Agent Orange
Prod. Liab. Litig., 818 F.2d 145, 163 (2d Cir. 1987).
Thus, in the MDL context, personal jurisdiction does

10
not typically become relevant until the cases are
returned to the transferor courts after pre-trial
proceedings are complete—that is, after summary
judgment. See 28 U.S.C. § 1407(a); Manual for
Complex Litigation (Fourth) § 22.36 (2004) (noting
MDL court’s authority to enter summary judgment but
not to try cases). Here, Pfizer’s actions were consistent
with that general rule. Pfizer conditionally proposed to
waive personal jurisdiction where a finding of subject
matter jurisdiction would have led to complete
dismissal on the merits, see In re Lipitor Mktg., Sales
Practices & Prod. Liab. Litig., 892 F.3d 624 (4th Cir.
2018), since a successful personal jurisdiction defense
would have scattered the cases to federal courts in all
fifty states on the eve of their disposition. That the
California courts required Pfizer to have moved on its
personal jurisdiction defenses in the midst of these
coordinated pre-trial proceedings and at a time when
they could not have been decided by the MDL court is
antithetical to the efficiency purposes of the MDL
statute. See 28 U.S.C. § 1407(a). And it is “bad policy
because a defendant’s decision to assert a personal
jurisdiction defense may well be informed by whether
it will have to defend against the claims at issue in a
state or federal forum.” ATRA.Br.6.
The lower courts here thus retroactively erected
unprecedented and doctrinally illogical procedural
hurdles to the assertion of personal jurisdiction
defenses under federal law. They did so in direct
contradiction of an unbroken chain of precedents from
this Court and the Courts of Appeals. Seeking to
exercise “coercive power” despite “little legitimate
interest in the claims in question,” the California

11
courts’ rulings here directly conflict with Bristol-Myers’
core holding. 137 S. Ct. at 1780. Because they flout
Bristol-Myers and every known authority on forfeiture
under federal law, this Court should grant certiorari
and reverse.
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully submitted,
SHEILA L. BIRNBAUM
MARK S. CHEFFO
RACHEL B. PASSARETTI-WU
LINCOLN DAVIS WILSON
DECHERT LLP
Three Bryant Park
1095 Sixth Avenue
New York, NY 10036

MICHAEL H. MCGINLEY
Counsel of Record
DECHERT LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com

JUSTIN M. ROMEO
DECHERT LLP
2929 Arch Street
Philadelphia, PA 19104
Counsel for Petitioners

November 5, 2019

